IN THE SUPREME COURT OF THE UNITED STATES
October Term 2020
CASE NO. ____________________
______________________________________
Eleventh Circuit Court of Appeals No. 17-14370
Southern District of Florida No. 16-cr-20836-PCH

BERNARD MOORE,
Petitioner,
vs.
THE UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS, ELEVENTH CIRCUIT
WITH INCORPORATED APPENDIX

SHERYL JOYCE LOWENTHAL
CJA Counsel for Petitioner Bernard Moore
Email: sjlowenthal@appeals.net
Florida Bar No. 163475
9130 S Dadeland Blvd. Suite 1511
Miami, Florida 33156-7851
Ph: 305-670-3360

Five Questions Presented
Questions One and Two
In Rehaif v. United States, this Court held that 18 U.S.C. §§ 922(g) and
924(a)(2) require the government to prove that “the defendant knew he possessed a
firearm and also that he knew he had the relevant status when he possessed it.” 139
S.Ct. 2191, 2194 (2019). One “relevant status” is that the defendant have a prior
conviction for “a crime punishable by imprisonment for a term exceeding one year.”
18 U.S.C. § 922(g)(1).
There is a direct split in the Circuits in cases that were tried to a jury and were
pending on direct appeal when this Court decided Rehaif. The first two questions
presented by this petition are:
First, whether in determining if the defendant’s substantial rights were
affected by the failure of the indictment to charge, and the government to prove to
the jury, that the defendant knew his relevant status, the courts of appeals may
consider the “entire” record, including a presentence report containing facts about
the defendant’s prior convictions that were not admitted or offered to be admitted at
trial?

i

Second, whether, even if the courts of appeals may consider the entire record,
a court of appeals errs by considering only certain non-trial evidence, and not
considering evidence on the record tending to show that the defendant lacks the
requisite knowledge of his status, all of which violated due process guaranteed by
the Fifth Amendment ?
Questions Three and Four
Whether in affirming Bernard Moore’s conviction and sentence, the United
States Court of Appeals for the Eleventh Circuit has so far departed from the
accepted and usual course of judicial proceedings, and sanctions such a departure by
the district court, as to call for the exercise of this Court’s supervisory powers in
that it violates every notion of reasonableness, fairness, due process, and common
sense, third, to affirm where the Eleventh Circuit violated Moore’s right to due
process under the Fifth Amendment by failing to adhere to its own precedent, and
precedent of this Court concerning his entitlement to relief while his case was
pending on direct review to a change of law? And fourth, to affirm where there was
a warrantless search in violation of the Fourth Amendment?

ii

Question Five
Fifth, whether the Eleventh Circuit reversibly erred and so far departed from
the essential requirements of law as to require supervision and correction by this
Court because the First Step Act was enacted while Moore’s direct appeal was
pending and Moore brought it to the attention of the Court; and in affirming the
sentence, and failing to grant relief on First Step Act grounds, the Eleventh Circuit
violated Moore’s due process rights and ignored this Court’s clear and binding
precedent on a change in law while an appeal is pending?

Table of Contents and Citations
QUESTIONS PRESENTED

i

PETITION FOR WRIT OF CERTIORARI

1

PARTIES TO THE PROCEEDINGS

1

OPINION BELOW

1

STATEMENT OF JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS
Fourth Amendment

3

Fifth Amendment

3
iii

Sixth Amendment

3

Statutes
Title 18, Section 922(g)

3

Title 18, Section 924(a)(2)

4

The First Step Act, Title IV, Section 401

4

STATEMENT OF THE CASE AND FACTS

4

REASONS FOR GRANTING THE WRIT
12

Reason One:

The Circuits are split on whether, in light of Rehaif, a defendant’s
conviction may be affirmed even though the indictment did not
charge, and the government did not prove at trial, that the defendant
knew his felon status, an essential element of the 18 U.S.C. § 922(g)
offense.
13
Reason Two:
This Court should resolve the split in the circuits as to whether an
appellate court may not use extraneous information that was not pled
or proven at trial, to determine that the defendant had to know, or
must have known, that he knowingly met the status element of the
charge of felon-in-possession of a firearm.
15
Reason Three:
The Eleventh Circuit Reversibly Erred in Affirming Because Fonseca
was Removed From all Facts set out in the PSR, and Accordingly,
Without Fonseca’s Actions and Participation There was no
Conspiracy Involving Bernard Moore.
18
iv

Reason Four:
The Eleventh Circuit has Reversibly Erred by Affirming a Serious
Fundamental Constitutional Error, Upholding the District Court’s
Grossly Erroneous Admission Into Evidence of the DVD of Video
Surveillance on January 6, 2016, Because it Clearly Violated Moore’s
Fourth Amendment Rights as it was Outside the Scope of the
Warrant.
23
Reason Five
The Eleventh Circuit has reversibly erred and so far departed from
the essential requirements of law as to require supervision and
correction by this Court because the First Step Act was enacted while
Moore’s direct appeal was pending; so by affirming Moore’s
sentence, and failing to grant relief on First Step Act grounds, the
Eleventh Circuit violated Moore’s due process rights and ignored this
Court’s clear and binding precedent.
26
CONCLUSION

29

APPENDIX TO THE PETITION

30

United States v. Bernard Moore
954 F.3d 1322 (11th Cir. 2020)
Final Judgment in a Criminal Case
Southern District of Florida No. 16-cr-20836
Docket No. 194
Entered on September 27, 2017
Order of the Eleventh Circuit Court of Appeals
Denying Moore’s Timely-Filed
Petition for Rehearing
Entered on September 10, 2020

v

TABLE OF CITATIONS
Cases:
Almendarez-Torres v. United States, 523 U.S. 224 (1998)

17

Fahy v. Connecticut, 375 U.S. 85 (1963)

25

Gamble v. United States, 139 S.Ct. 1960 (2019)

13

Griffith v. Kentucky, 479 U.S. 314 (1987)

27

Jefferson v. United States, 205 L.Ed.2d 450 (2020)

27

Johnson v. United States, 520 U.S. 461 (1997)

16

Katz v. United States, 389 U.S. (1967)

24

Neder v. United States, 527 U.S. 1 (1999)

16

Rehaif v. United States, 139 S.Ct. 2191 (2019)

i, ii, 12, 13, 14, 15, 17

Richardson v. United States, 139 S.Ct. 2713 (2019)

27

Wheeler v. United States, 204 L.Ed.2d 1067 (2019) July 5, 2019

27

United States v. Cook,
Supreme Court Petition from 7th Circuit, August 17, 2020

14

United States v. Cotton, 535 U.S. 625 (2002)

16

United States v. Davis, 139 S.Ct. 782 (2019)

11

United States v. Green,
Supreme Court Petition from Fifth Circuit August 28, 2020

14

United States v. Medley,
Supreme Court Petition No. 18-4789 (4th Cir. August 21, 2020)
vi

14, 15

United States v. Nasir, No. S.Ct.No. 18-2888
(3d Cir. Mar 4, 2020) (sua sponte decision to consider case en banc)

14

United States v. Qazi,
Supreme Court Petition from 9th Circuit September 17, 2020

14

United States v. Ross,
Supreme Court Petition No. 20-5405, August 14, 2020

12

United States v. Watts, 519 U.S. 148 (1997)

20

United States v. Reed, 941 F.3d 1018 (11th Cir. 2019)
Supreme Court Petition No. 8619, June 8, 2020

12, 14, 16

United States v. Benamor, 937 F.3d 1182 (9th Cir. 2019)
cert. denied, 140 S.Ct. 818 (2020)

14, 16

United States v. Bennett, 472 F.3d 825 (11th Cir. 2006)

18

United States v. Hollingshed, 940 F.3d 410 (8th Cir. 2019)
cert. denied, No. 19-7630, 2020 WL 1326060)

14, 16

United States v. Huntsberry, 956 F.3d 949 (7th Cir. 2020)

14, 15

United States v. Lara, __ F.3d __ , 2020WL 4668535 (1st Cir. Aug.12 2020)
United States v. Maez, 960 F.3d 949 (7th Cir. 2020)
United States v. Miller, 954 F.3d 551 (2d Cir. 2020)

14

14, 15, 16
14

United States v. Moore, 954 F.3d 1322 (11th Cir. 2020)

1

United States v. Owen, 858 F.2d 1514 (11th Cir. 1988)

18

United States v. Rothenberg, 610 F.3d 621 (11th Cir. 2010)

18

United States v. Spears, 443 F.3d 1358 (11th Cir. 2006)

18

vii

United States v. Vega-Castillo, 540 F.3d 1235 (11th Cir. 2008)
United States v. Ward, 957 F,3d 691 (6th Cir. 2020)
United States v. Williams, 340 F.3d 1231 (11th Cir. 2003)

21
14, 16
18

Other Authorities:
The United States Constitution
Fourth Amendment

i, 3

Fifth Amendment

i, 3

Sixth Amendment

3, 17

The United States Code
Title 18, Section 2

6, 7

Title 18, Section 922(g)

i, 4, 7, 11, 13, 15, 17

Title 18, Section 924(e)

28

Title 18, Section 924(a)(2)

i, 4

Title 18, Section 3231

2

Title 18, Section 3742(a)

2

Title 21, Section 841(a)(1)

6, 7

Title 21, Section 841 (b)(1)(B)

6

Title 21, Section 841(b)(1)(C)

6, 7

Title 28, Section 1254(1)

2
viii

The United States Sentencing Guidelines
Section 4B1.1

28

Rules of the Supreme Court of the United States
Rule 10(a)

2

Rule 13.1

2

Federal Rules of Criminal Procedure
Rules 8(a) and 8(b)

12, 22

Rule 14(a)

22

Rule 32

18

Rule 52(b)

18

Federal Rules of Appellate Procedure
Rule 4(b)

2

ix

PETITION FOR WRIT OF CERTIORARI
PARTIES TO THE PROCEEDINGS
The Petitioner Bernard Moore was a defendant, charged, tried, and convicted
in the Southern District of Florida in Case No. 16-cr-20836-PCH-3. He was an
appellant in the Eleventh Circuit Court of Appeals.
prosecution.

The respondent is/was the

There were three defendants charged in the indictment, Bernard

Moore, Derrick Miller, and Michael Fonseca (with whom Moore had no contact
whatsoever). Miller was tried together with Moore, was convicted and sentenced,
and was a co-appellant in the Eleventh Circuit.
OPINION BELOW
This petition is addressed to the decision of the Eleventh Circuit Court of
Appeals entered on March 31, 2020, United States v. Moore, 954 F.3d 1322 (11th
Cir. 2020), affirming both Moore’s and Miller’s convictions and sentences in the
Southern District of Florida on charges of narcotics trafficking and firearm
possession.
Following a jury trial, final judgment was entered in the district court on
September 27, 2017 (DE-194).

Copies of the Eleventh Circuit opinion, the

judgment of the district court, and the Eleventh Circuit order denying Moore’s
timely-filed petition for rehearing, all are in the appendix filed with this petition.
1

STATEMENT OF JURISDICTION
Final judgment against Bernard Moore was entered in September 2017. The
district court had jurisdiction to enter the judgment pursuant to 18 U.S.C. §3231. A
notice of appeal was timely filed pursuant to FRAP 4(b). The Eleventh Circuit had
jurisdiction over the appeal under 28 U.S.C. §1291, and authority to review Moore’s
challenge to his sentence under 18 U.S.C. §3742(a).
The opinion of the Eleventh Circuit, entered on March 31, 2020, is published
at 954 F.3d 1322.

Moore timely filed a petition for rehearing that was denied on

September 10, 2020. This petition is timely filed pursuant to Supreme Court Rule
13.1 and the Order of March 19, 2020, extending the time to file due to the Covid
emergency. The jurisdiction of the Court is invoked under 28 U.S.C. §1254(1).
Moreover, this Court has subject matter jurisdiction pursuant to Supreme Court Rule
10(a).

2

CONSTITUTIONAL and STATUTORY PROVISIONS
Fourth Amendment
The right of the people to be secure in their persons, houses, papers, and
effects, against unreasonable searches and seizures shall not be violated, and
no Warrants shall issue but upon probable cause, supported by Oath or
affirmation, and particularly describing the place to be searched, and the
persons or things to be seized.
Fifth Amendment
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a grand jury, except in cases
arising in the land or naval forces, or in the militia, when in actual service in
time of war or public danger; nor shall any person be subject to the same
offense to be twice put in jeopardy of life or limb, nor shall be compelled in
any criminal case to be a witness against himself, nor be deprived of life,
liberty, or property, without due process of law; nor shall private property be
taken for public use, without just compensation.
Sixth Amendment
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by and impartial jury of the state and district wherein
the crime shall have been committed, which district shall have been
previously ascertained by law, and to be informed of the nature and cause of
the accusation; to be confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his favor, and to have the
assistance of counsel for his defense.
STATUTORY PROVISIONS
Section 922(g) of Title 18 of the United State Code provides in relevant
part that: It shall be unlawful for any person – (1) who has been convicted in
3

any court of, a crime punishable by imprisonment for a term exceeding one
year …. to …. possess in or affecting commerce, any firearm or ammunition.
Section 924(a)(2) of Title 18 provides: Whoever knowingly violates
subsection …(g) of section 922, shall be fined as provided in this title,
imprisoned not more than 10 years, or both.
First Step Act, Title IV, Section 401: Reduce and Restrict Enhanced
Sentencing for Prior Drug Felonies, (1) Controlled substances act – the
Controlled Substances Act, 21 U.S.C. 801, et seq., is amended (1) in section
102 (21 U.S.C. 802), by adding at the end of the following: (57) The term
“serious drug felony” means an offense described in section 924(e)(2) of title
18, United State Code, for which (A) the offender served a term of
imprisonment of more than 12 months; and (B) the offender’s release from
any term of imprisonment was within 15 years of the commencement of the
instant offense. (58) The term “serious violent felony” means (A) an offense
described in section 3559(c)(2) of title 18, if the offense were committed in
maritime and territorial jurisdiction of the U.S for which the offender served
a term of imprisonment of more than 12 months; and (2) in section 401(b)(1)
(21 U.S.C. 841(b)(1) – (A) (i) and (ii) by striking the minimum mandatory
term and inserting a lower term of imprisonment.
STATEMENT OF THE CASE AND FACTS
On January 10, 2016, DEA agents executed a federal search warrant for 5645
Northwest 5th Avenue in Miami, Florida (the stash house) and confiscated three
firearms, ammunition, cocaine, heroin, ethylene, hydrocodone, and marijuana.
It was later alleged that from December 2, 2015 through April 19, 2016,
Michael Fonseca acquired heroin in the Southern District of Florida and sold it to
various individuals, including a confidential informant (CI); and that from December
2, 2015 through April 19, 2016, the Miami-Dade Police Department and the FBI
4

processed 13 controlled purchases of cocaine, heroin, and marijuana in or around
Fonseca’s Miami residence at 5538 NW 5th Avenue in Miami. Said controlled buys
involved 83.48 grams of marijuana, 2.74 grams of cocaine base, 27.95 grams of
cocaine, and 4.2 grams of heroin.
On April 25, 2016, a CI allegedly placed a controlled phone call to Fonseca
to arrange the purchase of a firearm and ammunition, which the CI purchased later
that day for $200.00.
Surveillance footage from January 10, 2016, showed someone who appeared
to be Bernard Moore leaving the stash house shortly before agents arrived to execute
the search warrant. DNA analysis of the Glock firearm found in the residence
revealed Moore's DNA on the trigger. Generally, surveillance footage showed that
the person who appeared to be Moore had dominion and control of the residence.
It must be noted that Bernard Moore has an identical twin brother. They share
the same DNA, they look alike, and they even have very similar tattoos.
On November 2, 2016, codefendant Derrick Miller was arrested at his
residence. During the arrest, agents recovered 348.57 grams of marijuana, 4.21
grams of heroin, and 2.74 grams of cocaine base from his residence. On that same

5

day Moore was arrested at his residence. During his arrest, agents recovered 27.95
grams of cocaine and 71.5 grams of marijuana from the residence. On November
3, 2016, Fonseca was arrested in Miami-Dade County, Florida.
In November 2016 Fonseca, Miller, Moore were charged in a nine-count
indictment in the Southern District of Florida, with firearm and drug offenses. In
January 2017, Fonseca pleaded guilty to one count and was sentenced to 120 months
incarceration.
Subsequently, First and Second Superseding indictments were returned. The
Third Superseding Indictment was returned in April 2017 charging Miller and
Moore in eight counts plus a forfeiture allegation:
Count 1 alleged that from December 2, 2015 to January 10, 2016, Miller and
Moore conspired to possess with intent to distribute cocaine base, heroin, cocaine,
marijuana, ethylene, and hydrocodone, in violation of 21 USC §§841 and 846;
Moore was not charged in Count 2; Count 3 charged Miller and Moore with
the substantive offense of possession on January 10, 2016, of the six controlled
substances named in Count 1, with intent to distribute, in violation of 21 USC
§§841(a)(1), 841(b)(1)(B), 841(b)(1)(C), and 18 USC §2;

6

Count 4 alleged that Miller and Moore, having been previously convicted of
a crime punishable by imprisonment for a term exceeding one year, knowingly
possessed firearms and ammunition in and affective interstate and foreign commerce
in violation of 18 USC §922(g)(1), specifically (a) a Glock 33, 357 caliber firearm;
(b) a Kahr P45, .45 caliber firearm; (c) a Beretta PX4 Storm, 9 mm caliber firearm;
and ammunition, specifically (d) 16 rounds of .357 caliber; (e) 27 rounds of .45
caliber; and (f) 12 rounds of 9 mm;
Count 5 charged both Miller and Moore with knowingly possessing a firearm in
furtherance of drug trafficking crimes referenced in Counts 1 and 2, in violation of
18 USC §§924(c)(1)(A)(i) and 2;

Moore was not charged in Counts 6 and 7;

Count 8 charged that on November 2, 2016, Moore knowingly possessed with
intent to distribute cocaine and marijuana in violation of 21 USC §§841(a)(1) and
(b)(1)(c), and 18 USC §2 (Moore was acquitted on this charge); and
finally, the forfeiture allegation as to the three firearms, 69 rounds of ammunition,
and $2,098 in United States currency.
Moore filed a motion in limine to exclude DVR video surveillance evidence from
January 6, 2016, purporting to show Moore and Miller holding handguns as they
exited the efficiency apartment, known as the stash house. The Motion averred that
Counts 4 and 5 charged Moore with possession of a firearm by a con7

victed felon, and with possession of a firearm in furtherance of a drug trafficking
crime on January 10, 2016. A videotape of activity on January 6 was irrelevant to a
firearm offense alleged to have been committed on January 10. Moore asked the
Court to preclude the government from introducing the January 6 video in its case,
because it was not probative for an offense alleged to have occurred on January 10.
The government responded. The motion in limine was denied one week before trial
began.
Miller filed a motion to suppress evidence seized during execution of the search
warrant on January 10, 2016. Moore adopted Miller's motions, objections, and
arguments.

The motion to suppress was denied as to both defendants, as were

Miller's motions to compel disclosure of the CI, and for severance based on
misjoinder. Jury selection was on June 13, 2017. The trial was conducted on June
13, 14 and 19. Deliberations began on the 19th and continued through the 20th.
On the second day of deliberations the jury sent out seven notes with comments
and questions. Note 6 was especially unusual. Certain jurors were worried about
their safety after trial. After speaking with jurors and conferring with counsel, the
district court concluded, and so informed the jurors, that there was no need to be
concerned. Miller and Moore both moved to strike two jurors on grounds of their
being fearful, and to replace them with alternates, but the motion was denied.
8

Thereafter, the jury reached a verdict finding Moore guilty as charged on
Counts 1, 3, 4 and 5 of the Third Superseding Indictment and not guilty on Count 8
(possession with intent to distribute cocaine and marijuana at time of his arrest).
Moore filed a motion for new trial alleging that "jury misconduct tainted the
case;" and that the "guilty verdicts were contrary to the weight of the evidence;” the
evidence did not support the allegations in Counts 4 and 5 that specified firearms
offenses committed on January 10, 2016; and that even though jury instructions
allow prosecutorial flexibility in not having to pinpoint a crime to an exact date, the
instruction that was given allowed the prosecution the unfair and unlimited ability
to prove a crime without specificity. Counts 4 and 5 were substantive charges. The
issue was clear: did the defendant possess a firearm as charged on a date certain.
The conclusion of insufficient evidence should be certain. Surveillance video
showed someone appearing to be Moore possessing a firearm on January 6, 2016.
There was no evidence of possession of a firearm by Moore on January 10, the actual
date of the offense charged in the Third Superseding Indictment. The Motion for
New Trial argued that the government elected to charge an offense on a specific date.
The government’s evidence showed something that occurred on a different date.
The evidence did not support the verdict, ergo, the convictions on Counts 4 and 5
should have been vacated.
9

The government responded that the charged offense was "on or about January
6." The motion was denied. The court agreed with the government that for a
charge of firearm possession "on or about January 10, 2016," evidence of possession
on January 6, four days earlier, was "reasonably near" and thus was sufficient.
Moore responded to the PSI. On September 25, 2017, he was sentenced to 240
months incarceration, four years of supervised release, and ordered to pay an
assessment of $400.00. That same day a notice of appeal and motion to proceed in
forma pauperis were filed. Undersigned was appointed to represent Mr. Moore for
purposes of his appeal.
On August 29, 2018, undersigned filed Moore's Initial Brief raising meritorious
issues Eleventh Circuit Case No. 17-14370, including inter alia, that the evidence
was insufficient; that the district court deprived Moore of his Fourth and Fifth
Amendment rights to due process, a fair trial and the right to be free of unreasonable
searches and seizures when it denied the motion to suppress and the motion in limine,
and permitted the government to introduce at trial DVR-video footage of events that
occurred at the so-called stash house on January 6, 2016; and that the district court
erroneously relied on Moore's prior Florida drug convictions to impose an enhanced
mandatory minimum sentence, rendering the sentence pro10

cedurally and substantively unreasonable. and should be vacated and the cause
remanded for a new sentencing hearing. Additionally, the PSR should be corrected
to reflect the Court's findings at the Sentencing Hearing.
In November 2018, a reply brief was filed on behalf of Bernard Moore. In
January 2019, Moore Supplemented his Brief with the First Step Act, Title IV
Section 401, because his priors no longer qualified for sentence enhancement. In
September 2019, the district court ordered that all mention of Fonseca be removed
from Miller’s PSR (as codefendant, coconspirator, or participant in any offense).
On September 12, 2019, Moore filed a supplemental brief citing two recent
decision of this Court, that entitle him to sentencing relief: United States v. Davis,
139 S. Ct. 782 (2019) applying to Moore's 924(c) conviction requiring reversal, and
Rehaif v. United States, 139 S.Ct. 1291 (2019) requiring reversal or vacatur of his
922(g)(1) conviction.
On January 28, 2019, the District Court corrected Moore's PSR, ordering the
removal of all references to Fonseca, specifically paragraphs 3 through 9 and 15.
On March 31, 2020, the Eleventh Circuit AFFIRMED the Judgment.

On May

20, 2020, Moore filed his Petition for Rehearing requesting reconsideration of the
following:

11

No relief for defendants being shackled through their trial; note from jurors,
fearful for their safety after the trial; the Rehaif question; and that none of Moore’s
other issues were addressed in the opinion and were dismissed in footnote 1, as
“meritless,” specifically: insufficient evidence; unreasonable search and seizure;
misjoinder in violation of F.R.Cr.P. 8(b).
On September 10, 2020, the petition for rehearing was denied. Petitioner
now respectfully files this Writ of Certiorari for good cause.

Reasons For Granting The Writ
Reason One
Bernard Moore joins other petitioners in asking this Court to resolve the
circuit split, as well as to resolve important and recurring questions arising from it.
A petition for writ of certiorari is pending in United States v. Reed, No. 8679, June
8, 2020, presenting a circuit split in trial cases in light Rehaif; and a petition in United
States v. Ross, N0. 20-5405, August 14, 2020, representing a circuit split in guiltyplea cases in light of Rehaif.

12

There is a fundamental issue whether the underlying statute, 18 U.S.C.
§ 922(g) exceeds Congress’ power under the Commerce Clause. In this, as in most
cases the government relied on the firearm’s manufacture in some other jurisdiction
and its appearance in Florida, a connection to interstate commerce having nothing
to do with Mr. Moore, to prosecute him for later possessing the firearm in Florida in
2016.

His case challenges Congress’ power to criminalize, and the federal

government’s authority to prosecute purely local conduct. See, Gamble v. United
States, 139 S.Ct. 1960, 1980 n.1 (2019) (Thomas, J. Concurring) (“Indeed, it seems
possible that much of Title 18, among other parts of the U.S. Code, is premised on
the Court’s incorrect interpretation of the Commerce Clause and is thus an incursion
into the State’s general criminal jurisdiction and an imposition on the People’s
liberty”).
The Circuits are split on whether, in light of Rehaif, a defendant’s
conviction may be affirmed even though the indictment did not charge, and
the government did not prove at trial, that the defendant knew his felon
status, an essential element of the 18 U.S.C. § 922(g) offense.
Prior to Rehaif, the courts of appeals had uniformly held that the government
had to prove the defendant’s knowledge only as to possession, not his status. See,
e.g., Rehaif, 139 S.Ct. at 2210 n.6 (Alito, Thomas, JJ., dissenting) (citing opinions

13

including the Eleventh Circuit’s decision in Jackson). Indictments and jury trials
pre-dating Rehaif accordingly neither charged nor required the government to prove
knowledge of status as an essential element of the offense. Following Rehaif,
however, the circuits are divided on whether these convictions should be vacated on
direct appeal. The Fourth Circuit vacated such convictions in United States v.
Medley, No. 18-4789 (4th Cir. August 21, 2020); as did United States v. Cook (No.
18-1343) (7th Cir. August 17, 2020); United States v. Green, (No. 19-4348) (5th Cir.
August 28, 2020); United States v. Qazi (No. 18-10483) (9th Cir. September 17,
2020).
The Eleventh, and other circuits, have disagreed. There is a clear circuit split.
See. United States v. Reed, 941 F.3d 1018 (11th Cir. 2019), cert. filed, No. 19-8679;
United States v. Lara, __ F.3d __, 2020 WL 4668535 (1st Cir. Aug. 12 , 2020);
United States v. Miller, 954 F.3d 551 (2d Cir. 2020); United States v. Huntsberry,
956 F.3d 949 (7th Cir. 2020); United States v. Ward, 957 F,3d 691 (6th Cir. 2020);
United States v. Maez, 960 F.3d 949 (7th Cir. 2020); United States v. Hollingshed,
940 F.3d 410 (8th Cir. 2019), cert. denied, No. 19-7630, 2020 WL 1326060); United
States v. Benamor, 937 F.3d 1182 (9th Cir. 2019), cert. denied, 140 S.Ct. 818 (2020);
see also, United States v. Nasir, No. 18-2888 (3d Cir. Mar 4, 2020) (sua sponte
decision to consider case en banc).
14

Reason Two
This Court should resolve the split in the circuits as to whether an appellate
court may not use extraneous information that was not pled or proven at
trial, to determine that the defendant had to know, or must have known, that
he knowingly met the status element of the charge of felon-in-possession of
a firearm.
At the heart of the circuit split is whether appellate courts may affirm §
922(g)(1) convictions by relying on facts about a defendant’s prior convictions,
which were not admitted or proven to a jury at trial, on facts about defendant’s prior
convictions which were not admitted or proven to a jury at trial to find that the
defendant must have known his felon status. See, Maez, 960 F.3d at 960 (“The
circuits have taken different approaches to the record for plain-error review of jury
verdicts in light of Rehaif.”); Huntsberry, 956 F.3d at 284 (“We note that our sister
courts have taken different paths on this issue” concerning “what sources of evidence
we, as an appellate court , may properly consider in determining whether the [Rehaif]
errors affected [the defendant’s] substantial rights”).
The Fourth Circuit found it “inappropriate to speculate how [the defendant]
may have defended” against the knowledge-of-status element had that element been
charged in the indictment and a trial, recognizing that “appellate judges are
especially ill-equipped to evaluate a defendant’s state of mind on a cold record.”
15

Medley, 2020 WL 5002706, at *11. The Fourth Circuit thus declined to rely on
evidence not admitted at trial to affirm the defendant’s conviction, explaining:
Although the Government has not had to prove the knowledge-of-status
element beyond a reasonable doubt, it has provided substantial post-trial
evidence supporting [defendant]’s knowledge of his prohibited status,
signifying that [defendant] was incarcerated for over sixteen years after
being convicted of second-degree murder. However, the “essentially
uncontroverted” requirement has not been satisfied. It would be unjust to
conclude that the evidence supporting the knowledge-of status-element is
“essentially uncontroverted” when [defendant] had no reason to contest that
element during pre-trial, trial, or sentencing proceedings.
Id. at *13 (applying the standard set forth in United States v. Cotton, 535 U.S. 625
(2002); Neder v United States, 527 U.S. 1 (1999); Johnson v. United States, 520 U.S.
461 (1997)).
The Eleventh Circuit, in contrast, relied on facts about Moore’s convictions
that were not admitted at trial, including the length of a prior sentence, to surmise
that Moore must have known that he was a felon when he possessed the firearm. In
Maez, 960 F.3d at 960, the Seventh Circuit discussed that four circuits including the
Eleventh, freely consult

materials not before the jury, in particular, criminal

histories from the presentence investigation reports without mentioning the propriety
of expanding the record; and also discussing Ward, 957 F.3d 691, 695 & n.1 (6th Cir.
2020); Hollingshead, 940F.32d at 415-16; Benamor, 937F.3d at 1189; and Reed,
941 F.3d at 1021. The decision to affirm Moore’s conviction conflicts
16

with the ruling of the Fourth Circuit. Had his case been prosecuted in the Fourth
Circuit, his conviction would have been vacated.
The Eleventh Circuit did not address the Sixth Amendment implications of its
decision to affirm based on information that was not presented to the jury. The fact
of a defendant’s prior conviction and his knowledge of it, are elements of the felonin-possesion offense. See, Rehaif, 139 S.Ct. at 2194-96; and Almendarez-Torres v.
United States, 523 U.S. 224, 230 (1998) (noting that unlike other sta-tutes, §
922(g)(1) makes recidivism “an offense element”). But the facts about Moore’s
prior convictions that the Eleventh Circuit relied on to infer knowledge of status, and
to affirm his conviction, were not proven to a jury beyond a reasonable doubt. Nor
moreover was Moore afforded an opportunity to present a defense as to whether he
had the requisite knowledge of status at the time of the firearm possession.

See,

Medley, 2020 WL 5002706 at *11-13. Thus, Moore requests that this Court review
and resolve this important issue that divides the circuits. Alternatively, Moore asks
that the Court hold his petition in abeyance pending resolution of other petitions
raising the same issue.

17

Reason Three
The Eleventh Circuit Reversibly Erred in Affirming Because Fonseca was
Removed From all Facts set out in the PSR, and Accordingly, Without
Fonseca’s Actions and Participation There was no Conspiracy Involving
Bernard Moore.
The record shows that Moore objected to "factual statements" in his PSR, that
"the incidents with Michael Fonseca should not be applicable to him. During trial,
no substantial evidence was offered that proved a conspiratorial relationship among
the two." See, United States v. Spears, 443 F. 3d 1358, 1361 (11th Cir. 2006),
wherein the Eleventh Circuit stated that, generally, that Court reviews a district
court's application of Rule 32 de novo; but if the defendant failed to preserve the
objection in the district court, it will review only for plain error. Also see Fed. R.
Crim. P. 52(b) and United States v. Owen, 858 F. 2d 1514, 1517 (11th Cir. 1988).
Defendants must assert challenges to factual statements in the PSR "with specificity
and clarity" which is what Moore did. U.S. v. Bennett, 472 F. 3d 825, 832 (11th Cir.
2006). Furthermore, where a determination turns primarily on
the evaluation of facts that are more accessible to the district court than the court of
appeals, the appellate court will defer to the district court's application of the law to
those facts and apply "clear error" review. United States v. Rothenberg, 610 F. 3d
621, 624 (11th Cr. 2010); and United States v. Williams, 340 F. 3d 1231, 1239 (11th
Cir. 2003).
18

Fonseca's alleged conduct is what was said to have started the alleged MillerMoore conspiracy.

Without the activities on December 2, 2015, there is no

conspiracy within the FBI's investigation. Therefore, there is no starting event that
the Eleventh Circuit could consider as beginning a conspiracy on that date between
Miller and Moore, proving that Moore should never have been charged with a
conspiracy that began with conduct from the Fonseca/FBI case. Therefore, during
Moore's sentencing hearing the district court first agreed and sustained the objections
by specifically ordering paragraphs 3 through 9 and 15, to be removed and stricken
from the record. Despite the district court's order to remove those references, the
Probation Office failed to comply and remove those paragraphs.
Thereafter, while his direct appeal was pending, Moore filed a Motion to Correct
Clerical Error; the district court issued an order granting the motion and directing
that said paragraphs be removed. Later, on September 9, 2019, while the direct
appeal was still pending, the district court expanded its previous order that the record
should "clearly reflect that Michael Fonseca is not a codefendant, coconspirator; or participant in any of the offenses of conviction by [Miller] nor Bernard
Moore." Since that order, Moore’s PSR reflects only what took place on January
10, and that should have been the only part of the narrative considered under the

19

reconsideration/rehearing. Without the information concerning Fonseca, Moore
never could have been indicted in this case.
Subsequent to the above-mentioned Court Order, while the direct appeal was
still pending, Moore filed a supplement in the Eleventh Circuit to inform that Court
of the changes in the PSR which affected certain claims raised on appeal.
It is, of course, the function of the district court to make factual findings on
issues by a preponderance of evidence, as it did during the Moore’s sentencing
hearing. Thereafter, the Eleventh Circuit should have adopted the district court's
factual findings and removed the Fonseca/FBI investigation from the "background"
and any narratives in Moore's appellate record. Thus, the Eleventh Circuit should
not have considered any conduct that the district court ordered to be removed from
the record. Due process allowed Moore to make objections concerning the "factual
statements" pursuant to Rule 32. The government agreed, and the court granted or
sustained the objections. For the Eleventh Circuit to simply ignore this as if it never
took place, violated Moore's constitutional rights.
Moreover, codefendant Miller was acquitted of that conduct. And, as this
Court ruled in United States v. Watts, 519 U.S. 148 (1997), perhaps controversially,
a jury verdict of acquittal does not necessarily prevent the Sentencing Court from
considering conduct underlying an acquitted charge, so
20

long as that conduct has been proven by a preponderance of evidence. Here, the
district court determined by a preponderance of evidence that the subject information
should not be used. Yet, the Eleventh Circuit failed to consider that references to
the FBI-Fonseca investigation should not be considered in Moore's case.
Fonseca's alleged conduct is what was said to have started the Miller-Moore
conspiracy. Had the Eleventh Circuit taken into consideration the district court’s
finding that Fonseca was not a codefendant, coconspirator, or participant in the
offenses, and without allegations of December 2, 2015, that were based solely on
Fonseca's conduct, there was no conspiracy shown. Therefore, there was no starting
event that the Eleventh Circuit could consider as beginning a conspiracy on that date
between Miller and Moore. It further proves that Moore should not have ever been
charged with a conspiracy that began with conduct from the Fonseca/FBI case.
Ultimately, the Eleventh Circuit is bound by precedent. Even if a panel of judges
disagrees with precedent, they still are obligated to follow it.
See, United States v Vega Castillo 540 F.3d 1235 (11th Cir. 2008) (clarifying the
prior precedent rule).

21

Here, the Eleventh Circuit failed to follow precedent. There is no en banc
decision overruling existing circuit precedent. Furthermore, the Eleventh Circuit
also is bound by this Court’s precedent.
This Court may take judicial notice that the relief that Moore requested, to correct
and revise the PSR to reflect the Court's findings at sentencing, was granted by the
district judge who ordered that the PSR be corrected and revised. Had the Eleventh
Circuit recognized that all references to Michael Fonseca were ordered by the district
court to be removed from the facts in the PSR, that would have had a direct impact
on at least two of the issues, specifically the sufficiency of the evidence and the Rule
8(a), 8(b), and 14(a) severance issues.
Wherefore, the Eleventh Circuit violated Moore's due process and therefore, this
Court should vacate and reverse the Eleventh Circuit’s judgment, and remand for de
novo review with specific instructions to apply the law stated above.

22

Reason Four
The Eleventh Circuit has Reversibly Erred by Affirming a Serious
Fundamental Constitutional Error, Upholding the District Court’s Grossly
Erroneous Admission Into Evidence of the DVD of Video Surveillance on
January 6, 2016, Because it Clearly Violated Moore’s Fourth Amendment
Rights as it was Outside the Scope of the Warrant.
As the probable cause section of the DEA-sought search warrant for DVR footage
sets forth beginning in paragraph 5, the FBI was only supposed to review footage of
January 8, 2016 and January 10, 2016 - together with the DEA - in order to determine
whether those dates were related to and substantiated their investiga-tion. The FBI’s
Lead Agent Justin Spence testified that his investigation had nothing to do with The
House or the DEA's execution of the search warrant (DE-241: 111-13).
According to the trial testimony of Forensics Examiner Charles Castillo, the DEA
was able to identify the footage they were authorized to seize easily because said
footage was date- and time-stamped (DE-239:222). Nevertheless, the Government
knowingly used footage from dates other than January 8, 2016 and January 10, 2016.
Indisputably, the Government used December 2, 2015; December 4, 2015;
December 12, 2015; December 18, 2015; December 29, 2015; January 1, 2016; and
January 6, 2016 – all of which were outside of the scope of the warrant (DE-240:46,
47, 76, 77, 78).
23

Agent Picone of the DEA only made copies of the two days targeted in the
warrant (See: DEA 6 Report of Investigation, prepared by DEA Agent Picone on
January 27, 2016). But Agent Spence, who had no nexus to the DEA investiga-tion,
submitted an additional 36 days of DVR footage as evidence, based on the DEAsought warrant. It is obvious that the FBI clearly and intentionally exceeded the
scope of the DEA-sought warrant in order to make a false connection with the
FBI/Fonseca investigation. A search and seizure outside the scope of a warrant is a
warrantless search, outside judicial process, and lacking prior judicial approval. It
is per se unreasonable under the Fourth Amendment of the United States Constitution. See, Katz v. United States, 389 U.S. 347, 88 S. Ct. 507 (1967).
Without that illegal footage, there was no other evidence to substantiate a
conspiracy that began on or about (by the FBI) on December 2, 2015 and ended on
January 10, 2016.

Agent Spence testified that Moore was not a part of his

investigation of the drug related activities (DE-240; 80, 81).

Therefore, the

Government clearly violated Moore's protection under the Fourth Amendment.
This Court has frequently held that the admission of evidence through an
unreasonable search and seizure constitutes good grounds for reversing a conviction,
especially where such evidence was the sole or primary basis for the
24

conviction, or at least was regarded as having been highly damaging to the
defendant. This Court also has held that that it was not concerned with whether there
was sufficient evidence on which the Defendant could have been convicted without
the evidence complained of, but the question was whether there was a reasonable
possibility that the evidence complained of might have contributed to the
conviction. See, Fahy v. Connecticut, 375 U.S. 85, 11 L. Ed. 2d 171 (1963).
As to this Reason for Granting the Writ, Moore requests that this Court vacate
the conviction and sentence and remand the cause to the Eleventh Circuit with
instructions to remand to the district court for a new trial without admission of the
illegally obtained DVD videos and because of the fact that without that tainted
evidence the outcome of the case Moore would be acquitted.

25

Reason Five
The Eleventh Circuit has reversibly erred and so far departed from the
essential requirements of law as to require supervision and correction by
this Court because the First Step Act was enacted while Moore’s direct
appeal was pending; so by affirming Moore’s sentence, and failing to grant
relief on First Step Act grounds, the Eleventh Circuit violated Moore’s due
process rights and ignored this Court’s clear and binding precedent.
The record shows that on February 7, 2019, after a reply brief had been filed
on behalf of Bernard Moore in the Eleventh Circuit Court of Appeals, a notice of
supplemental authority was filed with the Clerk of Court to direct the court’s
attention to the recent enactment of the First Step Act, Title IV, Section 401, which
was directly applicable to the fourth issue raised in Moore’s initial brief. The Fourth
issue on appeal addressed the sentence, specifically challenging the enhanced
minimum mandatory term that was imposed based on Moore’s prior Florida drug
convictions. Section 401 of Title IV of the Act, directly applied to Moore’s
sentence;. Because his direct appeal was pending, he was entitled to sentencing
relief.
Moore notified the Eleventh Circuit that because the criteria for an
enhancement pursuant to 21 U.S.C. Section 802 had changed, that enhancement no
longer applied to him due to the fact that after the First Step Act the prerequisite
“drug offenses” now were required to be not simply a felonious offense, but rather
“serious drug offenses” involving more than a certain quantity of drugs; punishable
26

for more than ten years; and the individual had to have served more than one year
for the offense, not simply a felonious offense.
The record shows that Moore served approximately four months for one of
his prior offenses, and mere days for the other two. Additionally, Moore no longer
qualified based on the required quantity of drugs involved in the prior offenses.
Additionally because he notified the Eleventh Circuit of this applicable
supplemental authority while his appeal was pending, he was entitled to
consideration and application of that new law, the First Step Act, to his case. See,
Griffith v. Kentucky, 479 U.S. 314, 316 (1987) holding that a new constitutional
rule must be applied retroactively.
In the case of Wheeler v. United States, 204 L.Ed.1067 (2019), the
government took the position that the First Step Act was not applicable to a case that
was pending on appeal. This Court disagreed and sent the case back to the circuit
court. Case No. 18-7187; Granted, Vacated, and Reversed on First Step Act
grounds. This Court traditionally rules that parties are not limited to the precise
argument made below; but may present any argument in support of an issue that was
properly presented in the court of appeals.

See, also, Richardson v. United States,

139 S.Ct. 2713 (2019); and Jefferson v. United States, 205 L.Ed.2d 450 (2020).

27

Had Section 401 been considered and applied when the Eleventh Circuit
decided Moore’s fourth issue on direct appeal, his sentence would have been
remanded to the district court for resentencing without consideration of the subject
Section 924(e), or the U.S.S.G. 4B1.1 enhancement. The outcome would have been
different, of course, and would have resulted in imposition of a more reasonable
sentence.
Because the Eleventh Circuit failed to adhere to its own precedent in such
matters, and failed to adhere to this Court’s precedent, it violated Moore’s most
fundamental constitutional due process right. Therefore, this Honorable Court
should Grant this petition, Vacate the sentence, and Remand the cause to the
Eleventh Circuit with instructions to vacate and remand to the district court with
appropriate instructions to resentence without improper, illegal enhancements.

28

Conclusion
Petitioner respectfully prays that this Honorable Court will Grant relief in this
matter, will issue its most gracious writ, and in the exercise of its supervisory power
over the Eleventh Circuit will vacate and reverse the judgment of the Eleventh
Circuit affirming Bernard Moore’s conviction and sentence, and remand the cause
with instructions to vacate and reverse and to order that Moore be discharged;
alternatively to remand to the Eleventh Circuit with instructions that the cause be
remanded for a new trial or in the alternative for a new sentencing hearing in
accordance with the First Step Act.
Respectfully submitted,
/s/ Sheryl J. Lowenthal
Sheryl J. Lowenthal, Atty at Law
CJA Counsel for Bernard Moore
on Petition for Writ of Certiorari

Dated: December 16, 2020

29

APPENDIX TO THE PETITION

United States v. Bernard Moore
954 F.3d 1322 (11th Cir. 2020)
Final Judgment in a Criminal Case
Southern District of Florida No. 16-cr-20836
Docket No. 194
Entered on September 27, 2017
Order of the Eleventh Circuit Court of Appeals
Denying Moore’s Timely-Filed
Petition for Rehearing
Entered on September 10, 2020

30

